No. 19-1357
ROBERT ANGEL PEREZ,
Petitioner,

v.
COLORADO,

Respondent.
CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Brief of Amicus Curiae National Association of Criminal Defense Lawyers in Support of Petitioner was sent via overnight FedEx to the U.S.
Supreme Court and a digital copy was sent to counsel
for the Petitioner and Respondent by electronic mail
on July 13, 2020. The parties have consented to electronic service.
Kendall Turner
O’Melveny & Myers LLP
1625 Eye Street, N.W.
Washington, DC 20006
(202) 383-5204
kendallturner@omm.com
Counsel for Petitioner

L. Andrew Cooper
Office of the Colorado Attorney General
1300 Broadway St.
Denver, CO 80203
(720) 508-6465
Andrew.cooper@coag.gov
Counsel for Respondent
/s/ Benjamin P. Chagnon
Counsel of Record

